App. 1
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
Jeffrey Wills Lusk, Individu­
ally and as Executor of the
Estate of Dorothy Jean
Ross Lusk, Deceased,
Plaintiff-Appellant,
v.
Crown Pointe Care Center
et al.,
Defendants-Appellees.

No. 18AP-549
(C.P.C. No. 18CV-2941)
(ACCELERATED
CALENDAR)

MEMORANDUM DECISION
Rendered on May 28, 2019
Jeffrey Wills Lusk, pro se.'
Poling Law and Brant E. Poling, for appellees
Central Ohio Hospitalists, Inc., DBA MedOne
Hospital Physicians, Daniel Miller, M.D., and
Brian Pulliam, C.N.P.
Tucker Ellis LLP, Ernest W. Auciello, and Jef­
frey C. Sindelar, Jr., for appellees Crown
Pointe Care Center, SHCP Franklin, Inc.,
Foundations Health Solutions, Inc., Atlas
Healthcare Solutions, Inc., Crista King, and
Lynn Marie Gutridge.

App. 2
ON APPLICATION FOR EN BANC
CONSIDERATION AND MOTION TO
CERTIFY A CONFLICT
LUPER SCHUSTER, J.
(H 1) On April 19, 2019, plaintiff-appellant, Jef­
frey Wills Lusk, filed an application seeking en banc
consideration, pursuant to App.R. 26(A)(2)(c), of this
court’s April 9, 2019 decision in Lusk v. Crown Pointe
Care Ctr., 10th Dist. No. 18AP-549, 2019-Ohio-1326,
which dismissed Lusk’s appeal from a judgment of the
Franklin County Court of Common Pleas dismissing
Lusk’s wrongful death and survival claims against defendants-appellees, Crown Pointe Care Center, et al.
On April 22, 2019, Lusk filed a motion requesting cer­
tification pursuant to App.R. 25(A) and Ohio Constitu­
tion, Article IV, Section 3(B)(4), of an alleged conflict
between our decision and O’Brien u. White & Getgey,
1st Dist. No. C74610 (Oct. 27, 1975). For the following
reasons, we deny Lusk’s application and motion.
I.

Application for En Banc Consideration

(H 2) “[I]f the judges of a court of appeals deter­
mine that two or more decisions of the court on which
they sit are in conflict, they must convene en banc to
resolve the conflict.” McFadden v. Cleveland State
Univ., 120 Ohio St.3d 54, 2008-0hio-4914, paragraph
two of the syllabus. App.R. 26(A)(2) outlines the stand­
ard for seeking en banc consideration. To apply for en
banc consideration, a party “must explain how the
panel’s decision conflicts with a prior panel’s decision

App. 3
on a dispositive issue and why consideration by the
court en banc is necessary to secure and maintain uni­
formity of the court’s decisions.” App.R. 26(A)(2)(b).
“Consideration en banc is not favored and will not be
ordered unless necessary to secure or maintain uni­
formity of decisions within the district on an issue that
is dispositive in the case in which the application is
filed.” App.R. 26(A)(2)(a).
(«H 3) Lusk alleges our decision in this case is in
conflict with this court’s decision in Heath u. Teich, 10th
Dist. No. 06AP-1018, 2007-Ohio-2529. However, in our
decision we distinguished Heath. Lusk asserts he is
the sole beneficiary of his mother’s estate and therefore
he can proceed pro se as the executor of the estate. In
analyzing this issue, we acknowledged that the Heath
decision suggested that if the non-attorney personal
representative of an estate is the sole beneficiary of the
estate, then that person may represent the estate in
court pro se. Lusk at % 11. But we further explained
that because Heath involved multiple estate benefi­
ciaries, any suggestion contained therein concerning
circumstances involving only one beneficiary is dictum.
Thus, the dispositive issue before us in this case was
not decided on the facts in Heath.
(H 4) Because Lusk fails to establish the
grounds necessary for en banc consideration, his appli­
cation is denied.

App. 4
II.

Motion to Certify a Conflict

(H 5) Ohio Constitution, Article IV, Section
3(B)(4) gives the courts of appeals of Ohio the power to
certify the record in a case to the Supreme Court of
Ohio “[w]henever * * * a judgment upon which they
have agreed is in conflict with a judgment pronounced
upon the same question by any other court of appeals.”
Pursuant to Section 3(B)(4), Article IV of the Ohio Con­
stitution, “there must be an actual conflict between ap­
pellate judicial districts on a rule of law before
certification of a case to the Supreme Court for review
and final determination is proper.” Whitelock v. Gilbane
Bldg. Co., 66 Ohio St.3d 594 (1993), paragraph one of
the syllabus. To meet this standard, the certifying
court must find that its judgment is in conflict with the
judgment of a court of appeals of another district and
the asserted conflict must be “‘upon the same ques­
tion. > n Id. at 596, quoting Section 3(B)(4), Article IV of
the Ohio Constitution. Second, the alleged conflict
must be on a rule of law, not facts. Id. Third, the journal
entry or opinion of the certifying court must clearly set
forth that rule of law which the certifying court con­
tends is in conflict with the judgment on the same
question by another district court of appeals. Id.
0J[ 6) Lusk argues our decision conflicts with
O’Brien v. White & Getgey, 1st Dist. No. C-74610 (Oct.
27, 1975). In O’Brien, the First District Court of Ap­
peals affirmed the trial court’s removal of the non­
attorney estate administrator as the attorney of record
in an action the administrator initiated to recover at­
torney fees paid by the decedent prior to her death. In

App. 5
that case, the administrator was not the sole benefi­
ciary of the estate. As in Heath, the O’Brien case did
not present the issue of whether an estate’s non­
attorney sole beneficiary may bring an action pro se as
the estate’s representative. Thus, O’Brien is also dis­
tinguishable from this case.
(It 7) Because our decision does not conflict with
O’Brien, we deny Lusk’s motion to certify a conflict.
III. Disposition
(SI 8) Based on the foregoing, we deny Lusk’s ap­
plication for en banc consideration and motion to cer­
tify a conflict.
Application for en banc consideration denied;
motion to certify a conflict denied.
SADLER and DORRIAN, JJ., concur.

App. 6
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
Jeffrey Wills Lusk, Individu­
ally and as Executor of the
Estate of Dorothy Jean
Ross Lusk, Deceased,
Plaintiff-Appellant,

No. 18AP-549
(C.P.C. No. 18CV-2941)
(ACCELERATED
CALENDAR)

v.
Crown Pointe Care Center
et al.,
Defendants-Appellees.

JOURNAL ENTRY
(Filed May 29, 2019)
For the reasons stated in the memorandum deci­
sion of this court rendered on May 28, 2019, it is the
order of this court that the Motion to Certify, filed April
22,2019, is denied. The application for en banc consid­
eration, filed April 19, 2019, is also denied.
LUPER SCHUSTER, SADLER,
& DORRIAN, JJ.
Bv /S/ JUDGE_____________
Judge Betsy Luper Schuster

App. 7
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
Jeffrey Wills Lusk, Individually and as Executor of the
Estate of Dorothy Jean
Ross Lusk, Deceased,
Plaintiff-Appellant,
v.
Crown Pointe Care Center
et al.,
Defendants-Appellees.

:
:
:
:

No. 18AP-549
; (C.PC. No. 18CV-2941)
(ACCELERATED
CALENDAR)

DECISION
NUNC PRO TUNC1
Rendered on April 16, 2019
On brief: Jeffrey Wills Lusk, pro se. Argued:
Jeffrey Wills Lusk.
On brief: Poling Law and Brant E. Poling, for
appellees Central Ohio Hospitalists, Inc.,
DBA MedOne Hospital Physicians, Daniel
1 This decision replaces, nunc pro tunc, the original decision
released April 9, 2019, and is effective as of that date. This deci­
sion reflects the motion granted February 11, 2019, in which the
case style was corrected to reflect executor, rather than adminis­
trator. Additionally, the decision notes Lusk as executor accord­
ingly.

App. 8
Miller, M.D., and Brian Pulliam, C.N.P. Ar­
gued: Zachary Hoover.
On brief: Tucker Ellis LLP, Ernest W. Auciello, and Jeffrey C. Sindelar, Jr., for appellees
Crown Pointe Care Center, SHCP Franklin,
Inc., Foundations Health Solutions, Inc., Atlas
Healthcare Solutions, Inc., Crista King, and
Lynn Marie Gutridge.

APPEAL from the Franklin County Court of
Common Pleas
LUPER SCHUSTER, J.
(H 1) Plaintiff-appellant, Jeffrey Wills Lusk, in­
dividually and as executor of the estate of Dorothy
Jean Ross Lusk, deceased, appeals pro se from a judg­
ment of the Franklin County Court of Common Pleas
dismissing Lusk’s wrongful death and survival claims
against defendants-appellees, Crown Pointe Care Cen­
ter et al. For the following reasons, we dismiss this ap­
peal.
I.

Facts and Procedural History

(H 2) In April 2018, Lusk, individually and as ex­
ecutor of the estate of his deceased mother, initiated
this action pro se against appellees alleging wrongful
death and survival claims. Appellees moved to dismiss
Lusk’s complaint because, as a non-lawyer, he was en­
gaging in the unauthorized practice of law by filing the
complaint pro se, the claims were time-barred, and the

App. 9
medical negligence claims were not accompanied by
the required affidavit of merit. On July 9, 2018, the
trial court dismissed Lusk’s wrongful death claim
based on its finding that Lusk’s filing of that claim con­
stituted the unauthorized practice of law, and it dis­
missed his survival claim based on its finding that the
statute of limitations had run as to that claim.
(H 3) On July 10, 2018, Lusk filed a notice of ap­
peal. Two days later, appellees moved to dismiss the
appeal on the basis that Lusk, a non-lawyer, may not
litigate this appeal. On July 17, 2018, this court filed
an entry agreeing that Lusk may not litigate the mat­
ter, but rather than dismissing the appeal at that time,
permitted him a reasonable time to obtain counsel. The
court noted that, if within 30 days, counsel had not
made an appearance on Lusk’s behalf, the appeal
would be dismissed. On August 1, 2018, Lusk filed a
motion to defer ruling on appellees’ motion to dismiss
the appeal until the case is submitted for decision. This
court granted Lusk’s motion, thereby permitting the
appeal to be briefed and deferring a ruling on the issue
of whether Lusk, as a non-lawyer, may prosecute any
part of this appeal. On August 15, 2018, appellees
moved for reconsideration of the decision to defer rul­
ing on the pro se representation question, which this
court denied. The appeal was argued and submitted to
the court for decision on February 19, 2019.1
1 After this appeal was submitted for decision, Lusk moved
to supplement the record with a document that purports to show
that no creditor claims have been filed against the decedent’s es­
tate. However, because the submitted document was not part of

App. 10
II.

Assignments of Error

(H 4)
review:

Lusk assigns the following errors for our

[1.] The trial court erred to the preju­
dice of appellant by granting appellees’
motion to dismiss, by failing to accept all
allegations of the complaint as true, by
failing to grant appellant all reasonable
inferences from those facts, and by find­
ing that it was beyond all doubt that ap­
pellant could prove no set of facts that
would entitle him to relief.
[2.] The trial court erred to the preju­
dice of appellant by ruling non-attorney
executor appearing pro se constituted the
unauthorized practice of law by failing to:
recognize wrongful death and survival ac­
tions are separate; follow the Ohio Su­
preme Court non-attorney executor
pro se exception; respect the executorbeneficiary fiduciary relationship; recog­
nize that executor has all the rights of
decedent, including right to appear pro
se; recognizes executor has management
rights that belonged to decedent; recog­
nize executor appearing pro se exercised
his own management rights rather than
rights of estate or beneficiaries; recognize

the record below, we deny Lusk’s motion and do not consider it.
See Morgan v. Eads, 104 Ohio St.3d 142, 2004-0hio-6110, f 13 (“a
bedrock principle of appellate practice in Ohio is that an appeals
court is limited to the record of the proceedings at trial”).

App. 11
executor’s personal liability for misman­
agement that ensures proper management-and not a requirement that he hire
an attorney to represent the beneficiaries’
interests; recognize distinction between
vesting management rights in executor
and beneficial interests in beneficiaries;
recognize the role of the fiduciary duties
in regulating the executor-beneficiary re­
lationship; recognize executor owes no
duties to the beneficiaries; recognize an
estate is very much unlike a corporation
because it is not a legal entity, as it cannot
sue nor be sued; and recognize the execu­
tor is the beneficial interest in the corpus
of the estate as its sole beneficiary.
[3.] The trial court erred to the preju­
dice of appellant by ruling non-attorney
executor appearing pro se constituted the
unauthorized practice of law by failing to
recognize adult children are not pre­
sumed to have suffered from the loss of a
parent, thus, are potential statutory ben­
eficiaries not yet determined by Franklin
County Ohio Probate Court to be real par­
ties in interest.
[4.] The trial court erred to the preju­
dice of appellant by finding the statute of
limitations had run before decedent knew
her injuries were proximately caused by
conduct of defendants despite the fact
complaint conclusively shows on its face
the action is not barred by the statute of

App. 12
limitations under the authority of the
“discovery rule.”
[5.] The trial court erred to the preju­
dice of appellant by failing to convert mo­
tion to dismiss to motion for summary
judgment, as required by Civ.R. 12, be­
cause appellant introduced extrinsic evi­
dence.
III. Discussion
(H 5) Before addressing Lusk’s assignments of
error, we must first analyze the threshold issue of
whether this matter is properly before this court. Lusk,
a non-attorney, is proceeding pro se. He argues he is
entitled to litigate this appeal of the trial court’s dis­
missal of the wrongful death and survival claims based
on his status as the sole beneficiary under decedent’s
will. We disagree.
(11 6) While a party may represent himself in a
court proceeding without the assistance of a lawyer,
the general rule is that a layperson may not represent
another person in a legal action. Norwalk MK, Inc. v.
McCormick, 170 Ohio App.3d 147,2006-0hio-4640, f 8
(6th Dist.); see Williams v. Griffith, 10th Dist. No.
09AP-28, 2009-0hio-4045, f 14, quoting State u. Block,
8th Dist. No. 87488, 2007-0hio-1979, f 4 (A “‘person
has the inherent right to proceed pro se in any court,
but that right pertains only to that person. It does not
extend to the person’s spouse, child, or solely owned
corporation.’”); R.C. 1.59 (A “person” is generally de­
fined to include “an individual, corporation, business

App. 13
trust, estate, trust, partnership, and association.”).
This rule has developed from the statute prohibiting
the unauthorized practice of law, R.C. 4705.01. Wood
Cty. Health Dist. u. Bauer, 6th Dist. No. WD-17-043,
2018-0hio-5203, 51 23. “The ‘practice of law’ consists of,
inter alia, preparing documents and papers prior to
commencement of actions, managing the resulting ac­
tions, and representing persons in court.” Norwalk MK,
Inc. at 1 8, citing Land Title Abstract & Trust Co. u.
Dworken, 129 Ohio St. 23, 28-29 (1934).
(51 7) Although there is no common-law action
for wrongful death, R.C. 2125.01 establishes such a
claim in Ohio. Under this statute, “[w]hen the death of
a person is caused by wrongful act, neglect, or default
which would have entitled the party injured to main­
tain an action and recover damages if death had not
ensued, the person who would have been liable if death
had not ensued * * * shall be liable to an action for
damages.” Such an action must be “brought in the
name of the personal representative of the decedent for
the exclusive benefit of the surviving spouse, the chil­
dren, * * * the parents of the decedent, * * * [and] the
other next of kin of the decedent.” R.C. 2125.02(A)(1).
For the purpose of R.C. 2125.02, “personal representa­
tive” means either the executor or administrator of the
decedent’s estate. Slater u. Ohio Dept, of Rehab. &
Corr., 10th Dist. No. 17AP-453, 2018-Ohio-1475, 51 16
(10th Dist.).
(51 8) The requirement that a wrongful death ac­
tion be brought in the name of the decedent’s personal
representative, who is generally represented by

App. 14
counsel, prevents a multiplicity of suits and facilitates
distribution of any sums received from wrongful-death
claims to the various beneficiaries. Peters u. Columbus
Steel Castings Co., 115 Ohio St.3d 134, 2007-Ohio4787, H 10, citing R.C. 2125.03; Williams at % 12. In
this capacity, the personal representative represents
the interests of the statutory next of kin. Williams at
*][ 13, citing R.C. 2125.02(A)(1). Here, Lusk was ap­
pointed as the executor of his mother’s estate. Gener­
ally, Lusk may independently represent his own
interests, but, as a non-attorney, he may not represent
in court the interest of others, including the decedent’s
other next of kin. While Lusk is one of decedent’s next
of kin, he is not her only next of kin as he has a sister,
and representing the interests of his sister would con­
stitute the unauthorized practice of law. Further, he
cannot proceed in a wrongful death action only on be­
half of himself individually because such an action
must be “maintained by the personal representative on
behalf of the statutory next of kin in one action.” Wil­
liams at f 15, citing R.C. 2125.02. Therefore, Lusk’s at­
tempt to proceed pro se in prosecuting the wrongful
death action is impermissible because he necessarily
would be representing the interests of at least one
other statutory next of kin.
(H 9) Lusk’s attempt to litigate the survival
claim is also impermissible. “[A] survival action
brought to recover for a decedent’s own injuries before
his or her death is independent from a wrongful-death
action seeking damages for the injuries that the dece­
dent’s beneficiaries suffer as a result of the death, even

App. 15
though the same nominal party [the personal repre­
sentative] prosecutes both actions.” Peters at ^[ 7. “Un­
der the general survival statute, R.C. 2305.21, a
victim’s right of action for personal injuries survives
and passes to her personal representative, and may be
instituted for the benefit of the estate.” Shinaver v. Szymanski, 14 Ohio St.3d 51, 55 (1984); Perry v. EaglePicher Industries, Inc., 52 Ohio St.3d 168, 169-70
(1990); see LaMusga v. Summit Square Rehab, LLC,
2d. Dist. No. 26641, 2015-0hio-5305, 155 (“survival
claims made by the personal representative are on be­
half of the estate”); Williams v. Barrick, 10th Dist. No.
08AP-133, 2008-Ohio-4592, f 10 (in bringing survival
claims, the personal representative of the decedent’s
estate was “standing in the shoes” of the decedent).
Thus, as to the survival claim, Lusk, a non-lawyer, was
acting on behalf of the decedent’s estate.
(H 10) Despite proceeding pro se on behalf of the
estate, Lusk argues the fiduciary responsibilities asso­
ciated with his status as the executor of decedent’s es­
tate enable him, as a non-lawyer, to litigate matters for
the benefit of the estate because there are sufficient
checks on his management of the litigation. But this
assertion fails to recognize the distinction between the
administration of a decedent’s estate and a wrongful
death or survival action being filed on behalf of the
next of kin or the estate in the name of the administra­
tor as the nominal party. An administrator’s duties per­
taining to the administration of an estate do not
change the principles precluding a non-lawyer from

App. 16
engaging in the practice of law. Williams, 10th Dist. No.
09AP-28, 2009-0hio-4045.
(H 11) Lusk also contends, citing Heath v. Teich,
10th Dist. No. 06AP-1018, 2007-Ohio-2529, that be­
cause the decedent disinherited Lusk’s sister by will,
and because there are no creditors of decedent’s estate,
he is permitted to litigate this matter on behalf of the
estate. Lusk is correct that this court in Heath sug­
gested that if the personal representative of an estate
is the sole beneficiary of the estate, then that person
may represent the estate in court. Id. at 8. However,
because Heath involved more than one beneficiary of
the estate, any suggestion contained therein concern­
ing circumstances involving only one beneficiary under
a will is dictum. Therefore, Lusk’s reliance on Heath is
unavailing as it relates to the case before us. Even if
Lusk is the sole beneficiary under the decedent’s will
and her estate has no creditors, these circumstances do
not alter the fact that he is attempting to litigate this
matter on behalf of the estate, which Ohio law gener­
ally treats as a “person” or an “entity.” R.C. 1.59; In re
Estate ofVilliers, 10th Dist. No. 12AP-293, 2013-Ohio2560, 3; Estate of Barney v. Manning, 8th Dist. No.
94947, 2011-0hio-480, 16. Lusk fails to cite, and our
independent research does not reveal, any Ohio case
holding that a non-lawyer personal representative
may litigate an action pro se on behalf of a decedent’s
estate. Conversely, at least one Ohio appellate court
has expressly opined that R.C. 4705.01 prohibits a non­
lawyer from litigating claims on behalf of an estate, pro
se, without noting any possible exception to this rule if

App. 17
there are no creditors or other beneficiaries to the es­
tate. See Mays v. Toledo Hosp., 6th Dist. No. L-13-1233,
2014-Ohio-1991, f 8.
(51 12) When a non-attorney files a notice of ap­
peal and attempts to prosecute the appeal in court as
counsel on behalf of another, such constitutes the un­
authorized practice of law for which the pleadings filed
should be stricken and the proceeding thus attempted
dismissed. Bank ofNew York v. Miller, 185 Ohio App.3d
163, 2009-0hio-6117, 51 13 (5th Dist.); Scott v. H.T.M.
Trust, 3d Dist. No. 12-90-4 (May 9, 1991). Therefore,
because Lusk is not authorized to appeal pro se from
the trial court’s dismissal of the wrongful death and
survival claims he filed against appellees on behalf of
the decedent’s statutory next of kin and her estate, we
must dismiss this appeal.
IV. Disposition
(51 13)
appeal.

For the foregoing reasons, we dismiss this
Appeal dismissed.

SADLER and DORRIAN, JJ., concur.

App. 18
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
Jeffrey Wills Lusk, Individu­
ally and as Executor of the
Estate of Dorothy Jean
Ross Lusk, Deceased,
Plaintiff-Appellant,
v.
Crown Pointe Care Center
et al.,
Defendants-Appellees.

No. 18AP-549
(C.P.C. No. 18CV-2941)
(ACCELERATED
CALENDAR)

NUNC PRO TUNC JUDGMENT ENTRY1
(Filed Apr. 16, 2019)
For the reasons stated in the decision of this court
rendered on April 9, 2019, having found appellant is
not authorized to appeal pro se, we dismiss this appeal.
It is the judgment and order of this court that this
appeal is dismissed. Appellant’s February 21, 2019

1 This judgment entry replaces, nunc pro tunc, the original
entry released April 9, 2019, and is effective as of that date. This
entry reflects the motion granted February 11, 2019, in which the
case style was corrected to reflect executor, rather than adminis­
trator.

App. 19
motion to supplement the record is moot and will not
be considered. Costs are assessed against appellant.
LUPER SCHUSTER, SADLER,
& DORRIAN, JJ.
Bv /S/JUDGE_____________
Judge Betsy Luper Schuster

App. 20
IN THE COURT OF COMMON PLEAS
FRANKLIN COUNTY, OHIO
Jeffrey Wilis Lusk, Indi­
vidually and as Adminis­
trator of the Estate of
Dorothy Jean Ross Lusk,
Deceased,
Plaintiff,
v.

Case No.
18 CV 2941
Judge David C.
Young

Crown Pointe, et al.,
Defendants.
Decision & Entry
(Filed Jul. 9, 2018)
I.

Introduction

This matter is before the Court on the following
filings:
•

The Motion of Defendants Crown Pointe,
SHCP Franklin, Inc., Atlas Healthcare Solu­
tions, Foundations Health Solutions, Christa
King, and Lynn Marie Gutridge to Dismiss
filed April 26,2018. Plaintiff filed a Memoran­
dum Contra on May 9, 2018.

•

Central Ohio Hospitalists, Inc. dba MedOne
Hospital Physicians, Daniel Miller, M.D., and
Brian Pulliam, CNP’s Motion to Dismiss filed
May 10, 2018. Plaintiff filed a Memorandum
Contra on May 18, 2018. Movants filed a Re­
ply on May 30, 2018.

App. 21
•

II.

Defendants Crown Pointe, SHCP Franklin,
Inc., Atlas Healthcare Solutions, Foundations
Health Solutions, Christa King, and Lynn Ma­
rie Gutridge filed a Joinder in the Motion to
Dismiss filed May 10, 2018. Plaintiff filed a
Memorandum Contra on June 11, 2018.

Standard of Review

Defendants move to dismiss this action pursuant
to Civ.R. 12(B)(6). A motion to dismiss for failure to
state a claim is a procedural device designed to test the
sufficiency of a complaint or cause of action. State Auto.
Mut. Ins. Co. v. Titanium Metals Corp., 108 Ohio St.3d
540,2006-0hio-1713,844 N.E.2d 1199, *][ 8, citing State
ex rel. Hanson v. Guernsey Cty. Bd. ofCommrs.,65 Ohio
St.3d 545, 548 (1992). In making this evaluation, the
court “must accept the material allegations of the com­
plaint as true and make all reasonable inferences in
favor of the plaintiffs.” Hamilton u. Ohio Dept of
Health, 2015-0hio-4041, 42 N.E.3d 1261, f 15 (10th
Dist.), citing Maitland u. Ford Motor Co., 103 Ohio
St.3d 463, 2004-0hio-5717, f 11, 816 N.E.2d 1061.
“When reviewing a Civ.R. 12(B)(6) motion to dismiss,
the court may consider only the statements and facts
considered in the pleadings and may not consider or
rely on evidence outside of the complaint.” Id., citing
Brown v. Columbus City Schools Bd. ofEdn., 10th Dist.
No. 08AP-1067, 2009-0hio-3230, f 4. Ultimately, “[f]or
the moving defendant to prevail, it must appear from
the face of the complaint that the plaintiffs can prove

App. 22
■

no set of facts that would entitle them to relief.” Id.,
citing Maitland at H 11.
III. Unauthorized Practice of Law
The Court will first address Defendants’ argument
that Plaintiff cannot maintain a wrongful death action
pro se. R.C. 2025.02(A)(1) provides that
a civil action for wrongful death shall be
brought in the name of the personal rep­
resentative of the decedent for the exclu­
sive benefit of the surviving spouse, the
children, and the parents of the decedent,
all of whom are rebuttably presumed to
have suffered damages by reason of the
wrongful death, and for the exclusive ben­
efit of the other next of kin of the dece­
dent.
In the context of wrongful death actions, “ [t] he require­
ment set forth in R.C. 2125.02 that the wrongful death
action be brought in the name of the personal repre­
sentative of the decedent’s estate does not supplant or
override the limits on who may practice law set forth
in R.C. 4705.01.” Heath v. Teich, 10th Dist. Franklin
No. 06AP-1018, 2007-Ohio-2529, f 11.
R.C. 4705.01 provides in pertinent part:
No person shall be permitted to practice
as an attorney and counselor at law, or to
commence, conduct, or defend any action
or proceeding in which the person is not a
party concerned, either by using or

App. 23
subscribing the person’s own name, or the
name of another person, unless the per­
son has been admitted to the bar by order
of the supreme court in compliance with
its prescribed and published rules.
* * *

The Eighth District stated as follows:
Under Ohio law, a non-attorney personal
representative of an estate may not liti­
gate claims on behalf of the estate pro se
because allowing a pro se litigant to rep­
resent others would constitute the unau­
thorized practice of law. See, e.g., id. at
1 15 (administrator of a decedent’s estate
could not bring a wrongful death claim
pro se on behalf of next of kin); Heath v.
Teich, 10th Dist. Franklin No. 06AP-1018,
2007-Ohio-2529, 1 11-12 (administrator
could not pursue appeal on behalf of es­
tate pro se; requirement that wrongful
death action be brought in the name of
personal representative of the estate did
not “override the limits” on who can prac­
tice law under R.C. 4705.01); Thompson v.
THC, Inc., S.D. Ohio Case No. C-l-07-231,
2008 U.S. Dist. LEXIS 75632, *4-6 (Sept.
30, 2008) (dismissal of complaint filed by
estate’s administrator without prejudice
was appropriate because even though ad­
ministrator was a beneficiary, she was not
the sole beneficiary and, therefore, could
not represent the estate’s interests pro
se).

App. 24
Kinasz v. Southwest Gen. Health Ctr., 8th Dist. Cuya­
hoga No. 100182, 2014-0hio-402, f 14. Further,
“[w]hen a non-attorney files a complaint in a court in
violation of R.C. 4705.01, the court should dismiss the
complaint without prejudice.” Williams u. Global Constr. Co., 26 Ohio App.3d 119,119,498 N.E.2d 500 (10th
Dist. 1985), paragraph 2 of the syllabus. See also Heath,
2007-Ohio-2529; Kinasz, 2014-0hio-402; Williams v.
Griffith, 10th Dist. Franklin No. 09AP-28, 2009-Ohio4045.
Plaintiff has filed the Complaint, and is proceed­
ing, pro se. The Complaint states as follows:
2. Plaintiff was appointed Executor of the
Estate of Dorothy Jean Ross Lusk, Deceased,
by the Franklin County Probate Court on 13
September 2016 in Case No. 580770. He
brings this wrongful death action as personal
representative for the exclusive benefit of the
surviving children, and other next of kin of the
deceased.
(Comp, at ^ 2.) Plaintiff is purporting to represent the
interest of the estate, the surviving children, and other
next of kin of the deceased. (Id.)
Plaintiff may not litigate the wrongful death
claims on behalf of the estate because it constitutes un­
authorized practice of law. Therefore, Plaintiff’s
wrongful death claims must be dismissed.

App. 25
IV. Statute of Limitations
Defendants also argue that the statute of limita­
tions has run on the survivorship claims. “A complaint
may be dismissed under Civ.R. 12(B)(6) as time-barred
under the statute of limitations if the face of the com­
plaint makes clear that the action is time-barred.” LGR
Realty, Inc. v. Frank & London Ins. Agency, 2016-Ohio5044, 58 N.E.3d 1179, f 10 (10th Dist.). A Civ.R.
12(B)(6) motion to dismiss based upon statute of limi­
tations should only be granted where the complaint
demonstrates conclusively on its face that the action is
time-barred. Id. “A party may assert a statute of limi­
tations defense through a Civ.R. 12(B)(6) motion to dis­
miss if the defense is apparent in the complaint.”
Ibanez v. Mosser, 10th Dist. Franklin No. 11AP-1100,
2012-Ohio-4375, f 7.
Plaintiff argues that his claims are ordinary neg­
ligence claims, and Defendants argue that they are
medical malpractice claims. The statute of limitations
for bodily injury claims that are based upon ordinary
negligence is two years. R.C. 2305.10(A). To the extent
that the claims are based upon medical malpractice,
they are subject to a one year statute of limitations.
R.C. 2305.113.
The Court finds that the claims are time barred,
even assuming, arguendo, that the two-year statute of
limitations for bodily injury based upon ordinary neg­
ligence applies. “The statute of limitations commences
to run as soon as the injurious act complained of is
committed; delayed damage is ineffective to delay the

App. 26
accrual of a cause of action predicated upon a wrongful
act.” Dublin v. Bansek, 10th Dist. Franklin No. 10AP14, 2010-Ohio-2372, f 8, quoting Ohio Assn, of Pub.
School Employees v. Liberty Moving and Storage, Inc.
(Dec. 20, 1984), 10th Dist. No. 84AP-605, 1984 Ohio
App. LEXIS 12114. The injurious act occurred, and the
statute of limitations began running, on April 5, 2016.
(Comp, at SI 3, 6.) The Complaint in this matter was
filed on April 6, 2018. The two-year statute of limita­
tions expired on April 5, 2018.
Further, the discovery rule does not apply in this
matter. The alleged injurious act was committed on
April 5, 2016, and bodily injury occurred immediately
on that date. (Comp, at SI 3, 6; Pl.’s Aff.2 at SI 8-11.) Fur­
ther, Plaintiff has failed to allege facts in the Com­
plaint which would toll the statute.
Moreover, the same result is reached if these
claims were determined to be medical malpractice
claims. In that case they would be subject to a one year
statute of limitations. R.C. 2305.113. The injurious act
occurred on April 5, 2016, and Ms. Lusk died on April
11,2016. (Comp, at f 3,6,9.) The statute of limitations,
therefore, would have run in 2017.
Based on the foregoing, the Court finds that the
statute of limitations has run, and the survivorship
claims are time-barred on the face of the Complaint.
2 The Affidavit is an attachment to the Complaint. “Attach­
ments to the complaint are considered part of the complaint for
all purposes.” Agrawal v. Univ. of Cincinnati, 10th Dist. Franklin
No. 16AP-293, 2017-Ohio-8644, f 11.

App. 27
V.

Conclusion

Therefore, the Court hereby GRANTS Defend­
ants’ Motions to Dismiss. Plaintiff’s wrongful death
claims are hereby DISMISSED without prejudice, and
the survivorship claims are DISMISSED with preju­
dice. This Decision & Entry TERMINATES this mat­
ter. This is a final, appealable order.
IT IS SO ORDERED.

App. 28
The Supreme Court of Ohio
Jeffrey Wills Lusk,
Individually and as
Executor of the Estate of
Dorothy Jean Ross Lusk,
Deceased

Case No. 2019-0913
ENTRY
(Filed Sep. 17, 2019)

v.
Crown Pointe Care Center
et al.
Upon consideration of the jurisdictional memo­
randa filed in this case, the court declines to accept ju­
risdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Franklin County Court of Appeals; No. 18AP-549)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

